<html>
<title> - RECLAMATION RECREATION MANAGEMENT</title>
<body><pre>[Senate Hearing 107-335]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-335

                   RECLAMATION RECREATION MANAGEMENT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   on

                                S. 1480

TO AMEND THE RECLAMATION RECREATION MANAGEMENT ACT OF 1992 IN ORDER TO 
 PROVIDE FOR THE SECURITY OF DAMS, FACILITIES, AND RESOURCES UNDER THE 
               JURISDICTION OF THE BUREAU OF RECLAMATION

                               __________

                            OCTOBER 9, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
78-209                     WASHINGTON : 2002

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                         Deborah Estes, Counsel
                        Colleen Deegan, Counsel
             Howard Useem, Senior Professional Staff Member

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bennett, Hon. Robert F., U.S. Senator from Utah..................     7
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Cantwell, Hon. Maria, U.S. Senator from Washington...............     7
Keys, John W., III, Commissioner, Bureau of Reclamation..........    16
Kyl, Hon. Jon, U.S. Senator from Arizona.........................    12
Landrieu, Hon. Mary L., U.S. Senator from Louisiana..............     4
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     2
Otis, Lee Liberman, General Counsel, Department of Energy........    19

 
                   RECLAMATION RECREATION MANAGEMENT

                              ----------                              


                        TUESDAY, OCTOBER 9, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Good morning. The purpose of this hearing is 
to receive testimony on S. 1480. Before I get into a very short 
opening statement on that and ask Senator Murkowski to do the 
same, let me advise folks we were planning to mark this bill up 
tomorrow. Senator Mansfield's funeral is scheduled for tomorrow 
morning, and they are taking quite a few Senators to that, so 
we will postpone that markup until Thursday morning instead of 
tomorrow morning.
    As I indicated, the purpose of the hearing today is to 
receive testimony on S. 1480, a bill to amend the Reclamation 
and Recreation Management Act of 1992 in order to provide 
security for dams, facilities, and resources under the 
jurisdiction of the Bureau of Reclamation, and to consider 
other proposals related to energy infrastructure security.
    S. 1480 was submitted to Congress by the administration and 
introduced by request on October 1, the committee has also 
received suggestion from the Department of Energy and from 
various energy industry groups regarding legislation that they 
believe would improve the security of our critical energy 
infrastructure. Based on this input, the committee has 
developed some draft language which has been made available to 
witnesses for their comments.
    The attacks of September 11 have made assuring the security 
of energy and water infrastructure an urgent priority. The 
legislation we are considering would provide law enforcement 
authority as requested by the administration to the Bureau of 
Reclamation, which has the responsibility for the operation of 
some 347 dams and reservoirs in the West. The draft language 
developed by staff would provide law enforcement authority to 
the power marketing facilities as well.
    We have also included provisions to facilitate criminal 
background checks for certain energy industry employees. Those 
provisions are to protect our critical energy infrastructure 
information and provisions addressing the sharing of 
information between the Government and energy industry 
companies. Pursuant to presidential decision directive 63, an 
organizational structure designed to deal with threats to 
critical infrastructure has been put in place by the Federal 
Government and private industry.
    However, the electric power information sharing and 
analysis center, ISAC, only became operational in June, and the 
oil and gas ISAC was formed this September. We urge the 
Department of Energy and the industry to place a high priority 
on making these organizations work well, and to come back to 
the committee promptly if additional authority is needed.
    Our first witness today is Senator Bennett from Utah. 
Senator Bennett and Senator Kyl have introduced S. 1456, the 
Critical Infrastructure Information Security Act of 2001. This 
bill applies to all of the critical infrastructures, including 
energy, banking, and financial communications, transportation, 
and vital human services. A number of energy industry 
representatives have indicated their interest in the 
legislation, and we are very glad to hear about it today.
    Before I call on Senator Bennett, let me call on Senator 
Murkowski for his opening statement.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Bingaman 
and Senator Bennett. If you will bear with me for a moment, let 
me give you the Minority view on this proposed legislation 
related to security and law enforcement capability at the 
Bureau of Reclamation sites, namely our dams, reservoirs, 
irrigation facilities, and other water delivery systems.
    These facilities provide for the agricultural production, 
power generation, flood control, and they form the basis for 
the settlement of the West and are crucial to the economy--the 
existence of communities west of the Mississippi River. While 
other Federal agencies have clear authority for law 
enforcement, the Bureau of Reclamation apparently does not. We 
want to satisfy ourselves to that, but that appears to be the 
case.
    Now, the administration has proposed legislation that would 
enable the Bureau to contract with State, local, and Federal 
officials, as well as law enforcement agencies, for law 
enforcement on Bureau of Reclamation lands and at Bureau of 
Reclamation facilities. What we want to be careful of is to not 
create a new law enforcement agency. This legislation, as I 
understand it, does not increase or diminish authorities that 
already exist. We want to make sure that this does not inhibit 
in any way access to Bureau of Reclamation lands for the 
general public enjoyment.
    I understand the House Resources Committee has already 
reported a companion measure. It is my hope we could deal with 
this matter in a timely fashion. In the energy sector there are 
numerous facilities, each with a varying degree of 
vulnerability and consequences of attack, whether it be oil and 
natural gas pipelines, refineries, electric transmission, 
substations, control facilities, hydroelectric dams, and 
certainly nuclear powerplants.
    For some of these, such as Federal powerplants and 
hydroelectric dams, the Federal Government already plays an 
important role in ensuring safety and security. For others, 
however, such as oil refineries, electric transmission lines, 
currently there is little, if any, Federal role.
    Now, before we jump headlong into directing the Federal 
Government to protect each and every infrastructure facility, 
we need to ask some basic questions. What is their 
vulnerability? What is their risk? What is the private sector 
already doing to safeguard facilities? Most major corporations 
obviously, whether they have specific sites associated with 
processing, refining and so forth, maintain their own security 
capabilities.
    It is my understanding that last week one major oil company 
received a bomb threat on one of its facilities here in 
Washington, D.C. As a matter of fact, the threat was that three 
bombs were in the building. They were evacuated--fortunately it 
was a nice day--but nevertheless, private security is 
maintained by those corporations, and we do not want to 
duplicate that.
    Now, clearly there are some things that can and should be 
done immediately. I think we have been ignoring far too long 
the issue of nuclear waste, and we have simply got to come to 
grips with it on a bipartisan basis. We should immediately 
complete Yucca Mountain so that our high level radioactive 
waste can be stored safely. It is not being stored safely 
because the facilities where it is located were not designed to 
store it beyond a reasonable period of time, and that time is 
past.
    Securing our Nation's waste in one central, secure, and 
remote facility is far safer than our current scatter-shot 
approach of leaving waste at 103 nuclear sites Nation-wide, in 
some 30 States. The Nuclear Regulatory Commission should remove 
from its web site detailed information about the location and 
the safety features of individual powerplants of a nuclear 
nature. I cannot imagine that the public needs to know the 
exact longitude and latitude of the location of our nuclear 
plants.
    We need to review existing Federal reporting requirements 
in the Freedom of Information Act to prevent the disclosure of 
sensitive information. We must make sure that we never again 
allow for the release of sensitive nuclear weapon data through 
bulk declassification.
    We must also be careful about expecting too much from the 
Federal Government. The FBI, or our intelligence agencies will 
play key roles, but we cannot station Federal troops along 
every mile of pipeline or at the front of every refinery. State 
and local police will remain the frontline law enforcement 
agency, and the industries will have primary responsibility for 
security of those facilities. As we review what should be done, 
it should be proportionate to the public risk. That means 
somebody is going to have to measure that risk.
    We look forward to hearing from the witnesses this morning 
and hearing their ideas that they are sharing with us.
    Thank you.
    The Chairman. Since we have a very sparse attendance right 
now, and this is a subject of great interest to members, let me 
just see if either Senator Campbell or Senator Landrieu would 
like to make any kind of opening statement. If they would, I 
would call on them right now.
    Senator Campbell. No, Mr. Chairman.
    The Chairman. All right.
    Senator Landrieu.

       STATEMENT OF HON. MARY L. LANDRIEU, U.S. SENATOR 
                         FROM LOUISIANA

    Senator Landrieu. I do, Mr. Chairman. I appreciate your 
calling the hearing this morning, and I welcome our colleague 
to testify. I am looking forward to hearing his testimony, and 
I have reviewed the outline, Senator, of your bill, and I think 
it has a lot of merit, and clearly an area that we need to move 
in, and I would like to just share a few points in this opening 
statement, and I will reserve some time for questions, because 
I think this whole issue, Mr. Chairman, is of critical 
importance to our Nation.
    Not only did the September 11 events refocus our attention 
on some of the most immediate needs that our Nation is facing, 
but I think it has made more clear the necessity for us to 
reevaluate much of the infrastructure in this Nation and look 
at it, unfortunately, in a different light. The dangers that it 
presents to communities, et cetera, as well as the benefits of 
this infrastructure system, and when we talk about energy that 
is, I think, particularly crucial.
    Now, last week, we know that an individual was able to 
cause about 150,000 gallons of oil to spill from the 800-mile 
trans-Alaska pipeline with a bullet from a high-powered rifle. 
That is just one example of the points that I am hoping to make 
in the next few minutes.
    I want to commend you, Mr. Chairman and our ranking member, 
for moving quickly on this energy security infrastructure 
issue. I know that the bill that you have put down for us to 
consider today, and the testimony that we will be hearing 
contains a lot of important parts. Law enforcement authority 
for Bureau of Reclamation Power Marketing Administration 
facilities, criminal background checks of employees at critical 
energy infrastructure facilities, all of these are important. 
These items are significant, but we need to do more.
    I think we need to expand on this concept, and our 
colleague has brought forward his ideas about sharing 
information, but I would like to add a couple of things to this 
discussion now that we are engaged in an operation to combat 
terrorism which will take considerable time. Some of the 
emergency measures put in place at energy facilities throughout 
the country in response to the September 11 attacks can only be 
maintained for so long.
    For example, off the coast of my State, in Louisiana, the 
Nation's largest port for off-loading crude oil was being and 
has been patrolled by military vessel. While a kind of safety 
zone around such areas makes sense, should we expand our 
military, or expend our military resources in order to continue 
to do so? Merely using our present available resources to 
operate at such high levels of alert for the duration of what 
all indications are will be a long-term effort does not seem 
realistic. There is an urgent need for substantial commitment 
to protect our country's infrastructure, energy infrastructure 
both in scope and duration.
    Although 90 percent of the infrastructure in this country 
is privately owned, the bill before us directs resources to 
those entities that are publicly owned. The industry has an 
obligation to provide security, but there is sufficient 
evidence that the Federal Government should make additional and 
significant contributions to this effort. Not only for the 
people's safety in communities, but also for the safety of our 
economy, which has its foundation on a reliable, safe source of 
energy for this Nation.
    And I do not need to put into the record a number of ideas 
which would lead us to indicate that our economy is not as 
strong as it could be and potentially should be, and what a 
disruption might cause.
    First, our country is now experiencing an economic downturn 
of some significance. Prices for oil and gas are low. It is 
imperative for the industry to continue to focus its attention 
on production measures to keep our domestic supply of energy 
steady, instead of diverting considerable financial resources 
to protection.
    Secondly, the actual impact of infrastructure located in 
one State more often than not extends beyond a particular 
State. Three of the country's top 10 gasoline-consuming States 
are in the Midwest. The Midwest imports 25 percent of its total 
demand from the gulf coast. Our gulf coast refining centers are 
handling half the total barrels produced in the United States 
today. There are only two pipeline systems moving the product 
from the South to the Midwest.
    This is, Mr. Chairman, a tremendous amount of pressure on 
gulf coast refining. Not only are refineries under pressure, 
the pipelines are under pressure, and now I think there is 
evidence that there could be some threat, not specific 
evidence, but clearly in the light of September 11 we have got 
to look at this infrastructure with a different light. What 
happens if one or both of these systems are disrupted?
    In addition, the only off-shore terminal in the whole 
continental United States is the loop facility which is off the 
shore of Louisiana. 13 percent of all the imported oil comes 
through that one facility.
    So in conclusion, whether we are talking about pipelines, 
transmission lines, refineries, nuclear plants, as Senator 
Murkowski indicated, ports, rigs, platforms, the Federal 
Government has a clear and compelling interest in providing 
necessary resources to ensure that our energy infrastructure is 
sufficiently protected.
    I am going to propose legislation today which will do four 
things, and I want to get this on the record this morning and 
look forward to working with my colleagues on this.
    One, it will establish a multi-year national energy 
infrastructure program to provide funding annually to all 50 
States in order to make sure that all appropriate measures from 
the monitoring and detection of potential threats to mitigate, 
respond and recover are in place against hostile and natural 
threats.
    Two, to create two funds, one for the protection of energy 
infrastructure located in coastal zones of oil and gas-
producing States, the other for energy structures, 
infrastructure of all 50 States, including those in oil and 
gas-producing States.
    Three, provide funding based on a formula related to the 
amount of energy infrastructure a State has, as well as to the 
contribution of the State's infrastructure to the rest of the 
Nation.
    Finally, the Governor of each State would consult with 
Federal, State, and local law enforcement public safety 
officials, industry and other relevant persons or agencies to 
put together this security plan to submit to the Secretary of 
Energy detailing what measures might be necessary to protect 
the infrastructure to the best of our ability and within the 
framework of the resources provided, and within, I might say, a 
public-private partnership, which clearly will be necessary.
    In order to pay for this program, we should use a 
percentage of off-shore revenues from oil and gas development 
on the Outer Continental Shelf. We need to increase production 
in that area as well as on-shore, and use those additional 
dollars to help protect our Nation and to provide the resources 
necessary to do the things that, Senator, you are going to be 
speaking about this morning, the chairman has suggested in his 
legislation.
    I thank you, Mr. Chairman, for allowing me, because I will 
be introducing this bill today and offering it as an amendment 
to our markup tomorrow. Thank you.
    [The prepared statement of Senator Landrieu follows:]

  Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator Louisiana

    The vulnerability of our country's energy infrastructure became 
more clear last week when an individual was able to cause about 150,000 
gallons of oil to spill from the 800-mile Trans-Alaska Pipeline with a 
bullet from a high powered rifle.
    I want to commend the Chairman for moving to focus our attention on 
the issue of security of our energy infrastructure. You have put 
forward a legislative proposal that addresses some of the matters of 
importance to us: law enforcement authority at Bureau of Reclamation 
and Power Marketing Administration facilities; criminal background 
checks of employees at critical energy infrastructure facilities; and 
protection of critical energy infrastructure information. While all of 
these items are significant, I believe the events of September 11 have 
proven that we need to do more legislatively to make sure our nation's 
energy infrastructure is adequately protected from both hostile and 
natural attacks.
    We are now engaged in an operation to combat terrorism which will 
take considerable time and resources. Some of the emergency measures 
put in place at energy facilities throughout the country in response to 
the September 11 attacks can only be maintained for so long. For 
example, off the coast of my state of Louisiana, the nation's largest 
port for offloading crude oil was being patrolled by a military vessel. 
While a kind of safety zone around such areas makes sense, should we 
expend our military's resources in order to do so? Merely using our 
present available resources to operate at such high levels of alert for 
the duration of what all indications are will be a long-term effort 
does not seem realistic. There is a need for a substantial commitment 
to the protection of our country's energy infrastructure both in scope 
and duration.
    Although 90% of the energy infrastructure in this country is 
privately owned and operated and industry does have an obligation to 
provide security, there is sufficient evidence to suggest the federal 
government should make a more significant contribution. First, our 
country is now experiencing an economic downturn. It is imperative for 
our government to continue to focus its attention on production 
measures to keep our domestic supply of energy steady.
    Second, energy infrastructure is by nature not contained within the 
borders of one state or region. For example, three of the country's top 
ten gasoline consuming states are in the Midwest. The Midwest imports 
25% of its total demand from the Gulf Coast. While the Gulf Coast 
refining centers handle half of the total barrels processed in the U.S. 
today, there are only two pipeline systems in place to move the product 
from the South to the Midwest. This is a tremendous amount of pressure 
on Gulf Coast refineries to meet demand in the Midwest. What happens if 
one or both of these systems are disrupted? In addition, the only 
offshore oil terminal in the United States, the Louisiana Offshore Oil 
Port (LOOP), is estimated to take in 13% of the United States' imported 
oil and refining capacity and is connected by five pipelines to over 
30% of the United States refining capacity. Imagine the impact its 
disruption from natural or hostile threats would have on the nation's 
refining capacity.
    So, whether we are talking about pipelines, transmission lines, 
electric generators, refineries, nuclear power plants, ports, rigs or 
platforms the federal government has a clear and compelling interest in 
providing the necessary resources to ensure that our energy 
infrastructure is sufficiently protected. Since the disruption of a 
particular facility or transmission line has economic consequences and 
could pose a significant threat to the safety of the surrounding 
population, as well as the effect on our economy, environment, state 
and local authorities must also play a role. This would require a 
partnership among the federal, state and local governments and 
industry.
    I am proposing legislation which would:

  <bullet> establish a multi-year national energy infrastructure 
        program to provide funding annually to all 50 states in order 
        to make sure that all appropriate measures from the monitoring 
        and detection of potential threats to mitigation, response and 
        recovery are in place against hostile and natural threats;
  <bullet> create two funds, one for the protection of energy 
        infrastructure located in the coastal zones of oil and gas 
        producing states, the other for the energy infrastructure of 
        all fifty states excluding those areas in the oil and gas 
        producing states that would be provided for in the first fund;
  <bullet> provide funding based on a formula related to the amount of 
        energy infrastructure a state has as well as to the 
        contribution of the state's infrastructure to the rest of the 
        country;
  <bullet> the Governor of each state would consult with Federal, state 
        and local law enforcement, public safety officials, industry 
        and other relevant persons or agencies to put together a 
        security plan to submit to the Secretary of Energy detailing 
        what measures were necessary provide adequate protection of 
        that particular state's infrastructure; and
  <bullet> in order to pay for this program we would use a percentage 
        of offshore revenues from oil and gas development on the Outer 
        Continental Shelf.

    If we are truly serious about protecting our country's energy 
infrastructure from present and future threats, it is necessary for us 
to provide a commitment of significant federal resources as soon as 
possible.
    Thank you.

    The Chairman. Thank you very much.
    Senator Cantwell, did you have an opening statement?

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Mr. Chairman, thank you. I did want you 
to know prior to our last closed session on the energy 
infrastructure, I did visit with the Army Corps of Engineers 
that has responsibility for security on part of our hydro 
system in the Northwest, and I would like the committee to have 
that information in light of the Bureau of Reclamation 
legislation as well.
    Thank you.
    The Chairman. Thank you, and Senator Bennett, thank you for 
being here to tell us about your proposed legislation. Go right 
ahead.

       STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR 
                           FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman. I 
congratulate you on your foresight in including in your bill a 
reference to infrastructure protection. Senator Kyl and I have 
introduced our bill, which is something of an orphan. We are 
looking for someone to adopt it, and if you should decide to 
fulfill that function and put our bill into your bill, I think 
I can speak for Senator Kyl, we would be delighted to have that 
kind of parentage.
    One word I want to leave with you with respect to critical 
infrastructure as you conduct your deliberations is the word 
seamless. Unfortunately, as we have addressed critical 
infrastructure in this country, we have done it in a stovepipe 
way. We have looked at critical infrastructure in one industry 
or one sector of the economy, and the one thing that leaves us 
vulnerable to is the overlapping seamlessness of the threat 
that can come in today's information age world.
    I have a chart here which I do not expect anybody to 
understand, other than to look at it and get an overall 
impression of what it is. That, Mr. Chairman, is a map of the 
world. You will notice there are no oceans on it, there are no 
mountains, there are no geographical barriers. It is a map of 
the Internet in the world, and everything is connected in some 
way with everything else, so when you think in terms of 
critical infrastructure, you must understand the seamlessness 
of the problem.
    If there is an interruption in the critical infrastructure 
in the transportation world, for example, if the computers fail 
that run the railroads, that means that coal cannot get to 
coal-fired plants, because if the computers fail in the 
transportation system, no one knows where any of the railroad 
cars are. There are no physical records any more tracking 
railroad cars. They are all run by computer, so that someone 
who can break into the transportation computer infrastructure 
can have an impact on energy.
    The same thing is true with telecommunications. When the 
Secretary of Defense picks up the telephone in the Pentagon to 
connect him with the Commander of the Central Command, that 
phone call goes through Verizon, so that someone who breaks 
into the telecommunications system can affect our defense 
posture.
    If someone decides to get into the Fedwire banking and 
financing, and if they could shut down the Fedwire with a 
computer attack, there could be no financial transactions. No 
one in any energy refinery or other facility could get paid. 
Their paychecks would not be automatically deposited because 
the Fedwire controls all of the financial transactions in the 
country, and so on and so on and so on.
    I put this chart up to indicate just how seamless the 
modern world has become, how productive it is, but at the same 
time as we have the tremendous productivity that comes from 
this kind of interconnectiveness, how vulnerable it is, so 
someone can break in in one place and then have an impact some 
place else.
    The second chart, which is simply a subset of the first, 
comes out of a hearing that I held in the Joint Economic 
Committee, and this is a map made of one company's network. 
Now, you will notice different colors. The interesting thing 
about it is that the green color, the dark color, the most 
dominant color is of the networks the company knew that it had. 
The other colors, the other portion of the map come from 
network connections that the company was unaware of.
    They come from suppliers, customers, others who are 
connected with the company's networks, which means if you were 
a terrorist who wanted to shut this company down, you could 
break into one of the orange networks. Unbeknownst to the 
company you are then connected with the green network, and you 
could do mischief from directions where no one would be 
expecting any kind of attack.
    So a cyber threat that could shut down a computer in one 
situation can have a cascading effect and end up causing damage 
to critical infrastructure some place else, so while I applaud 
what is in your bill, the point I want to make is that it is 
tied directly to the water and energy sector, and there are 
vulnerabilities that threaten the water and energy sector that 
come from cyber space, of which many people might not even be 
aware.
    Now, as Senator Landrieu pointed out, the vast majority of 
the critical infrastructure is owned by the private sector. She 
used the phrase, 90 percent. We are told 85 percent. I will not 
quibble about the difference. That means the protection of the 
computers that run our critical infrastructure system in this 
seamless atmosphere in which we live is primarily in private 
hands.
    We have a blind spot in this situation, a major national 
blind spot, and it comes from the fact that we do not know what 
is going on in one portion of that map that could affect the 
other portion of the map. For example, if the Defense 
Department sees increased computer attacks on their networks, 
no one in private industry knows that. There is no trading of 
information. And conversely, if there is an increased attack on 
private networks, the people in the intelligence community or 
the Defense Department do not know that, but what you are 
looking for on a national basis is the emergence of a pattern, 
a pattern of attacks that tells you that some terrorist is 
after you.
    Now, our defense intelligence communities are under attack 
every day. I have been in the facilities where these attacks 
are monitored. The information is classified, and so I will not 
in this hearing go any further than that, but I can tell you 
that I have seen in real time the attacks that are going on 
every single day against our defense facilities. Some of these 
attacks come from hobbyist hackers who simply want to get in to 
prove that they can, but many of them come from much more 
sinister sources and are after access which, if they achieved 
it, could be very dangerous to our defense capacity.
    Now, someone who recognizes the map that I have just shown 
you says, all right, I have tried to get into the U.S. Defense 
Department directly. I cannot. Now let us try some place else. 
Let us try something in the private sector that may not be as 
well-protected, or that can be detected as carefully, and a 
pattern of attacks starts somewhere where the folks in the 
Defense Department have no knowledge of it.
    I have used the Defense Department as an example, but we 
could take the energy and water sector of the economy and say 
exactly the same thing. Someone could try to get into an energy 
installation, say the labs in your State, Mr. Chairman, in an 
attempt to get information that would be valuable to a 
terrorist. They are repulsed by Government firewalls that are 
built in and around the labs.
    And so they say, okay, we cannot get in there, let us go 
into the telecommunications system and see if we could come 
into the labs somehow through the telephone network. Let us try 
something as humble as a supplier of the labs, something that 
has nothing whatever to do with energy, but from that orange 
network, find ourselves being able to get into the green 
network and then get the information that we need, or do the 
damage that we seek to do from a source that no one had 
anticipated.
    So with that background, let me outline for you the bill 
that Senator Kyl and I have introduced which we think should be 
considered as a possible substitute for what you have in your 
own bill.
    In this chart, I have outlined the problem as I have tried 
to describe it in my comments. We have private industry that is 
seamlessly connected. The four examples we put up here were the 
telecom industry, the banking industry, high tech, and the 
power industry, but you could add many, many more to that 
particular circle. We have tried to keep it fairly simple.
    The blind spot, as I said, is that there is currently no 
ability for private industry to share information about attacks 
with each other in that circle on the left-hand side of the 
chart, nor is there any formal ability to share the information 
with the U.S. Government, or for the U.S. Government to share 
its analysis of what is going on with anybody in private 
industry, and this is what the bill that Senator Kyl and I have 
introduced seeks to correct.
    We want to make it possible for private industry to consult 
with each other as attacks are mounted, and then as that 
information is gathered, to furnish that to the U.S. Government 
in a way that will not compromise the security of that 
information, and this is where we come up to deal with the 
Freedom of Information Act.
    Now, the Freedom of Information Act contemplates the 
ability of private citizens to share information with the 
Government and have that information kept confidential, kept 
out of the public arena, but because it was drafted before we 
got to the state we are in the cyber age today, the Internet 
age, the Freedom of Information Act does not have crisp, clear 
definitions of which pieces of information can be protected 
from FOIA and which pieces cannot.
    FOIA simply says it will be up to Congress to provide these 
definitions in the future, so it is in the spirit of complying 
with the Freedom of Information Act that Senator Kyl and I have 
introduced our bill to provide the specificity of that kind of 
information that can be protected.
    Many people have attacked our bill on the grounds that the 
public has a right to know, therefore, Senator Bennett and 
Senator Kyl are trying to hold down public disclosure with 
their bill. Those who make that kind of attack miss the point, 
the point being that if the FOIA protections outlined in our 
bill are not granted to private industry, private industry will 
not share this information with the Federal Government. It is 
not that the public is being deprived access to information 
that they would otherwise have if our bill does not pass. It is 
that the Government is being deprived of information that they 
would not have unless our bill is passed.
    Understand, FOIA not only gives the American public the 
right to this information, it gives other people the right to 
this information, including, if you will, Mr. Chairman, the 
terrorists who might want to use their attacks to cripple our 
critical infrastructure, and then the private industry says an 
attack is going on. Here, Government, is a list of the pattern 
of attacks. Tell us what it means.
    The terrorist files a FOIA request and says, we want that 
same analysis, and they can sit wherever they are in the world 
and say to themselves, well, we have got a complete analysis of 
how successful we have been. They were able to stop us here, 
here, and here, but they are worried about there, there, and 
there, so now we know where to target our attacks.
    That is why our bill says that this information that is 
shared voluntarily by the private industry solely for the 
purpose of informing the Government of what is going on and 
then getting analysis back from the Government as to what the 
private industry ought to be doing about it, that that 
information will be kept confidential and will not be subject 
to a normal FOIA request.
    We are not treading on unfamiliar ground here. Senator Kyl 
and I served on the Y2K special committee, and the bill that 
passed this Congress, signed by President Clinton, had some 
FOIA information exemptions there as well, so that private 
industry could share with the Federal Government their 
vulnerabilities to a Y2K shutdown, receive back from the 
Federal Government information about it, and that it would not 
be shared with their competitors or with some potential 
terrorist, and so we have experience with this. The world has 
not come to an end, the First Amendment has not been degraded, 
and we are simply building upon that experience with the 
legislation we are proposing.
    So Mr. Chairman, to summarize this, and I appreciate your 
indulgence in allowing me to go on this long, let me say that 
there are four needed provisions in any legislation that deals 
with information on critical infrastructure.
    First, the critical infrastructure must be better-defined 
than it is, and our bill attempts to do that.
    Second, the private sector must be able to share 
information with the Government, knowing that that information 
will be protected.
    Third, that the Federal Government must have the capability 
to analyze that information and share back with private 
industry.
    And fourth, that the private sector must be enabled and 
empowered to work together around this circle on the left-hand 
side of the chart, and that is why there are some antitrust 
provisions in our legislation.
    So I close, Mr. Chairman, as I opened. We must understand 
when we deal with critical infrastructure that we cannot 
stovepipe the problem. We cannot say, well, this is the 
vulnerability in this sector, this is the vulnerability in this 
sector, and so on. We must understand horizontally that the 
computer world has made the information that controls all of 
our sectors virtually seamless, and a cyber attack that might 
be mounted by a terrorist could come anywhere in the economy 
and then travel through the Internet virtually anywhere else.
    We have raised this issue a number of times. members of the 
committee have a chart that comes out of a GAO report that 
responded to queries that were raised by a number of us in 
which they discussed the vulnerability and assessments and 
remedial plans that are currently available industry by 
industry.
    This chart goes to the question of seamlessness, and goes 
down all of the sectors, banking and finance, electric power, 
emergency fire services, law enforcement, and so on, and again 
and again, in the column that discusses vulnerability 
assessments, we see some assessments performed, no remedial 
plans, some assessments performed, no remedial plans, no 
assessments, methodology developed but no assessments 
performed, no remedial plans.
    We need to get on with this as quickly as we can, and the 
first place where we start is with information.
    With that, Mr. Chairman, again my thanks for your 
indulgence. Senator Kyl is here, and I would be delighted to 
have anything that he might wish to add as a cosponsor of this 
bill.
    The Chairman. Let me sort of interrupt our normal procedure 
and ask if Senator Kyl has anything he wants to add at this 
point.

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Mr. Chairman, thanks very much, and I 
appreciate very much your willingness to hear Senator Bennett 
and to call on me, because he has made the case I think 
thoroughly for the substantive aspects of this legislation. I 
cannot conceive of Congress not doing this.
    I will just address one thing, and that is what committee 
should do it, and in what piece of legislation, and if you just 
go round the chart--and there are some groups that are not even 
on there. You have got the Government Affairs Committee, you 
have got the Finance Committee, the Commerce Committee, the 
Judiciary Committee, the Energy and Natural Resources 
Committee. Any one of those could take the lead on this.
    Somebody has to take the lead, and because the Attorney 
General's reforms were the essence of the Judiciary Committee 
work, I felt, and Senator Bennett agreed, that perhaps the bill 
that everyone knew was going to have to move, an energy bill 
that affected more than just the subject of energy might be the 
most propitious place to start this. If we do not start some 
place and put it in some bill, as Senator Bennett said, it is 
an orphan, and yet I cannot imagine anybody not agreeing that 
the essence of the bill needs to be addressed, and addressed 
very, very quickly.
    So rather than addressing the substance of it, let me just 
make a plea for this committee to think out of the box a little 
bit. I mean, terrorists have now caused us to all think out of 
the box, and because of the seamlessness of this threat to our 
information infrastructure, we have to start some place. The 
energy sector is a very logical place to start, and that is why 
I propose that we include these provisions in the bill, which, 
by the way, would subsume what you, Mr. Chairman, have put in 
with respect to energy, but are not contradictory to those two 
particular sectors.
    Senator Landrieu. Mr. Chairman.
    The Chairman. Senator Landrieu.
    Senator Landrieu. If I could, since we are not following 
our regular order, let me just say, a) I would love to be a 
cosponsor of your legislation. I think it is very important, 
and I would like to join with you in helping you, and I will do 
my part to urge this committee to adopt this piece of 
legislation, because I think it would fit nicely, Senators, 
into what we are trying to put together and push forward with 
some urgency to this Congress about the importance of 
protecting our energy infrastructure, both cyber and physical, 
and there are obviously, as you pointed out in your 
legislation, some things that we should do sooner as opposed to 
later, and I want to commend you and thank you for making that 
presentation.
    The Chairman. Thank you.
    Senator Bennett. We are always happy to receive support.
    The Chairman. Senator Bennett, let me just ask the obvious 
question that both you and Senator Kyl addressed. You say we 
cannot stovepipe the problem, and I do not disagree with that. 
Congress is very good at stovepiping issues. We have done that 
by dividing ourselves into these committees. It is your 
position, the same as Senator Kyl's, that we should go ahead 
and not just deal with the provisions in your bill as they 
relate to energy, but the broader provisions, is that what I 
understand?
    Senator Bennett. That is correct, Mr. Chairman. If I can 
share this experience with you, again going back to our Y2K 
days. When the airplane slammed into the World Trade Center in 
New York, the New York emergency services were immediately 
called on. Senator Dodd, who was the vice chairman of the Y2K 
Committee, paid a visit to the emergency preparedness center in 
New York City, where the coordination of all of these services 
in the city took place.
    The leaders of that facility said to him, Senator, if we 
had not done the Y2K remediation necessary to make sure that 
our computers did not fail, we would not have been able to 
provide the emergency services necessary to deal with the 
crisis in Lower Manhattan, and Senator Dodd shared that comment 
with me on the Senate floor, and he said, at least we did 
something worthwhile out of that, because once again the 
seamlessness of the problem manifested itself, so I believe you 
are doing the right thing for protection of information that 
would impact energy and water.
    Back again to the labs in your home State, which are very 
dependent on computers and the network, the Internet, you are 
doing a service to protect those labs when you adopt something 
like our legislation, even though the legislation goes all 
across the board, and is not just aimed at the labs.
    The Chairman. Now, as I understand it, there is similar 
legislation that is pending in the House. Could you tell the 
committee what your understanding is as to whether it is 
similar, and what the status of it is?
    Senator Bennett. There is similar legislation pending in 
the House. With all of the modesty that we all possess in the 
Congress we think our bill is better. We think we have focused 
on the definition issue a little bit better than the House has, 
and again drawing on the experience that Senator Kyl and I had 
in the Y2K committee, we think we have a better handle on the 
overall problem, but the House is moving forward, and I think 
the Senate ought to do the same.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Senator Bennett, I share your 
observation. I think we all saw some of the television coverage 
after September 11 which indicated that, indeed, the quick 
recovery from the standpoint of our financial community, the 
bond houses, trading groups, brokers and so forth, was a 
consequence of preparation for Y2K, where they had the fear of 
the unknown at the end of that year starting the millennium 
really geared up in such a way as they had a backup that was 
there, a plan, and they were able to initiate it, and I think 
it speaks for the reality of being prepared.
    From the standpoint of one member of the minority, I think 
we would be prepared to recommend to our minority the inclusion 
of your bill in the infrastructure security bill that we are 
talking about here, and I commend you for your forthrightness, 
and Senator Kyl as well, because obviously your contribution in 
Y2K was significant, and I think it is a carryover, and I wish 
you well.
    Senator Bennett. Thank you, sir.
    The Chairman. Senator Landrieu, did you have other 
questions?
    Senator Landrieu. Yes, I have one question. I have got a 
document here that is very interesting from the American 
Petroleum Institute that responded to the chairman's request to 
submit points that they would like for us to consider, and one 
of them, as I am reading this, is on this particular subject, 
and I wanted to know just for the record if you could help 
clarify something.
    This organization is concerned that under the EPA's risk 
management program that you are probably, Senator, familiar 
with, that was developed, this sort of body of law about the 
right to know, for consumers and communities' right to know in 
terms of hazardous materials and chemicals, and many States and 
communities have developed, but they point out in there, and I 
think they are making a good point, and it was sort of along 
the lines of what you said, that the public's right to know has 
to be balanced, with some of this information being readily 
available on the Internet being then turned around and used 
against us, so their point is basically, in whatever 
legislation that we would do, that we would, whatever 
legislation we would advocate for, would address this issue.
    So my question is, in your hearings, or in your work in 
this particular area, could you give us any suggestions about 
how to make that balance appropriate in terms of the Cyber or 
Chemical Emergency Preparedness and Prevention Act?
    Senator Bennett. Thank you. As I indicated in my 
presentation, there is a hesitancy on the part of industry to 
let out information which they feel would be detrimental to 
them, either competitively or in terms of some kind of public 
panic or overreaction.
    Our bill addresses that information that would be 
voluntarily given, so the comments that I made apply here. If a 
particular plant says, we do not want anybody to know this, and 
they are under currently no obligation to tell anybody, that 
information would not be available to any emergency 
preparedness personnel either if they were afraid the emergency 
preparedness personnel might leak it.
    So instead of restricting the amount of the public's right 
to know, the approach we are trying to take is to increase the 
flow of information among responsible parties without 
endangering the confidentiality of that, and I think the 
exchange of this information would actually increase the public 
right to know.
    If somebody in an emergency preparedness agency gets a 
piece of information voluntarily, and says, wait a minute, we 
probably ought to have some sort of public alert on this issue, 
and then talks to the people in the plant, and they talk it 
through and come to a joint decision that yes, we will publicly 
announce so much, but not this much, the public learns more 
than they would have otherwise, and it has been screened in a 
responsible way instead of being subject to a FOIA request, 
which is nothing but a fishing expedition, very often, and ends 
up getting out information that might, in fact, cause panic and 
do more harm in the name of right to know than would otherwise 
be the case.
    Senator Landrieu. Thank you.
    The Chairman. Senator Domenici.
    Senator Domenici. First, Mr. Chairman, I compliment you for 
having the hearing, and I urge you to proceed with dispatch, 
which I think you already intend to do, and frankly, the fact 
that there are so many jurisdictions that have a piece of this 
legislative pie to me would indicate that you ought to move 
ahead with a broader-based bill than that which would 
technically fit within this committee's jurisdiction, because 
if you do not get started and get something moving to the 
floor, where debate can occur, we will be out of here, and we 
will be into next year's legislative agenda. We will not have 
done something that is patently needed.
    I want to suggest to you that on the Armed Services bill 
that was an authorizing bill you joined me in what I think is a 
very interesting amendment, and I would intend to offer it on 
this bill, and it has to do with the national infrastructure 
and simulation analysis.
    We have an amendment that you and I sponsored on the floor 
which would take the existing analysis-gathering network, which 
is essentially the national laboratories, and they are making 
sense out of piecemeal kind of damage to our infrastructure. 
They make sense out of the cascading effect where one 
particular piece of infrastructure, if you analyze it all 
alone, you do not get its impact on the country because it has 
all other kinds of ramifications.
    So I will be here tomorrow when you mark this up, and I am 
hopeful that Senator Bennett, who is aware of the laboratory's 
role in this--that is, the three major defense laboratories--
and I hope you would accept the amendment as an amendment 
tomorrow, and we will be going over it with you and the staff, 
Mr. Chairman. I think it has already been done, but we will do 
it again.
    Thank you for calling the hearing and getting something 
done.
    The Chairman. Thank you.
    Let me just repeat what I said at the beginning of the 
hearing. Because of Senator Mansfield's funeral tomorrow we are 
going to try to mark up Thursday morning, rather than tomorrow 
morning.
    Senator Campbell.
    Senator Campbell. No, thank you.
    The Chairman. Senator Kyl.
    Senator Kyl. Mr. Chairman, thank you. First of all, I 
appreciate Senator Landrieu's willingness to cosponsor, and the 
others' willingness to include this legislation. As I said, I 
think the case is very easy to make.
    The question is just the same procedural conundrum we 
always get into around here, and maybe we are blessed by the 
fact that since virtually every committee in the Senate could 
have some jurisdiction over this, because the very intention is 
to make it broad and seamless, that point was well made by 
Senator Domenici.
    We need to start some place, or we will still be talking 
about this when we leave at the end of the year, and perhaps 
this bill does, as I said before, offer the best opportunity 
for us to get it out there, see if there are any other things 
that we need to do to it, and then have a vehicle for it to 
become the law, and again, I really appreciate your willingness 
to consider this.
    The Chairman. Thank you, and Senator Bennett, thank you 
very much for your presentation, and we will take all of your 
recommendations under advisement here.
    Senator Bennett. Thank you very much, Mr. Chairman.
    I will say that my staff and I have looked at Senator 
Domenici's bill. We find it completely complementary with what 
we are doing, and I cannot speak for my cosponsors, but as far 
as I am concerned, I would be delighted to have that bill 
included with ours, and I appreciate very much your 
consideration.
    The Chairman. Thank you. Let us start with the next panel. 
I think we will find ourselves interrupted. We have a vote 
coming at 10:30, I believe. Our other two witnesses today are 
Mr. John Keys, III, who is Commissioner of the Bureau of 
Reclamation, and Ms. Otis, who is the General Counsel with the 
Department of Energy.
    Mr. Keys, why don't you go right ahead with your statement.

         STATEMENT OF JOHN W. KEYS, III, COMMISSIONER, 
                     BUREAU OF RECLAMATION

    Mr. Keys. Good morning, sir. This is my first appearance 
before your committee as Commissioner, and I really appreciate 
your having us here to talk about law enforcement today.
    The Chairman. You might just pull that microphone a little 
bit closer to you there.
    Mr. Keys. I would appreciate my whole written statement 
being entered in the record, and I would certainly summarize, 
if I could.
    The Chairman. It will be included, as Ms. Otis' written 
statement.
    Mr. Keys. Thank you, Mr. Chairman.
    The Bureau of Reclamation is the largest water management 
agency in the West. We operate 348 reservoirs, 58 hydroelectric 
plants, and in excess of 300 recreation areas that serve about 
90 million visitors a year. What that means is, we have over 
400 sites that need some sort of security in one level or the 
other.
    In spite of our obligation to operate, manage and run those 
facilities on 8 million acres of land in the West, we still 
need express authority to enforce Federal laws and regulations 
within a Reclamation project and on Reclamation administered 
lands.
    The Bureau of Reclamation's dams, powerplants, and other 
sites are secure. We are operating on a normal schedule at the 
current time. That was the case before September 11, the 
tragedy in Washington and New York, but we are now operating at 
a high state of alert and a high level of security at all of 
those facilities.
    Unfortunately, there have been and continue to be 
violations of Federal law on Reclamation property that threaten 
public safety and security and the resources that we depend on 
there. Agency-wide, the Bureau of Reclamation offices have 
recurring problems: unauthorized entry onto lands and 
facilities, vandalism, theft of cultural resources, illegal 
dumping, illegal drug activities, and similar type violations 
all over the West.
    A couple of examples: at Lake Berryessa in California, our 
recreation area, we had a riot that we had an awfully hard time 
dealing with. Yuma project in Arizona, we have had breaches of 
facilities there, vandalism that causes great problems.
    In a nutshell, we can contract with State and local law 
enforcement agencies to enforce State and local laws. They 
cannot enforce Federal laws on the Reclamation property, or 
Reclamation-administered lands. For example, at a recreation 
site in Oregon, we had to work with county government to have 
them establish local ordinances around our facilities so that 
they could enforce local and State law, rather than the Federal 
law on those Federal lands.
    Often, lands adjacent to Reclamation properties are managed 
by other Federal agencies who have law enforcement capability. 
Currently, we are limited in our ability to acquire those law 
enforcement services from sister agencies.
    Another problem that we face is local sensitivity. The 
Bureau of Reclamation has been denied local law enforcement 
support at times, when issues are sensitive in a community, 
when that community does not agree with the Federal law that we 
are trying to enforce.
    A couple of examples, lately we have been trying to deal 
with the trespass and the protection of our facilities in the 
Klamath Falls area. A few years ago we faced similar problems 
at the American Falls. Such situations put the Bureau of 
Reclamation personnel and resources in danger.
    Now, on S. 1480, let me tell you what the bill does not do, 
first. It would not create a new Reclamation police force or 
law enforcement agency. It would not authorize Bureau of 
Reclamation employees to carry firearms at work. It would not 
empower Reclamation employees to issue warrants or make 
arrests.
    Now, what it would do for us, it would give the Secretary 
the discretion to authorize personnel from Interior or other 
Federal agencies with law enforcement authorities, except 
Defense, to enforce Federal laws on Reclamation's behalf around 
our facilities.
    It would give Reclamation the discretion to enter into 
agreements with State, local, or tribal law enforcement 
agencies to enforce Federal law at Reclamation projects and on 
Reclamation-administered lands.
    It would authorize the Secretary to reimburse law 
enforcement agencies, and it would ensure that only trained law 
enforcement personnel, who are authorized to carry firearms, 
make arrests and enforce criminal laws, would be eligible to 
enforce Federal law on Reclamation lands.
    In conclusion, lack of authority impedes Reclamation's 
ability to provide for public safety and security around our 
facilities. The administration strongly supports S. 1480. We 
understand from discussions with committee staff that some 
technical modifications have to be made or may be needed to 
fully effect the bill's purposes. We would work with the 
committee and staff to do that, and to make those changes.
    The administration, Secretary Norton, and I, urge adoption 
of S. 1480 with the necessary minor changes. We would 
appreciate a clean bill so that it could be passed as soon as 
possible and let us be on with the business at hand.
    Thank you again for being able to be here, and I would 
certainly answer any questions you might have.
    [The prepared statement of Mr. Keys follows:]

        Prepared Statement of John W. Keys, III, Commissioner, 
                         Bureau of Reclamation

    My name is John Keys, I am Commissioner of the U.S. Bureau of 
Reclamation (Reclamation). Let me start by saying that as my first 
appearance before this Committee as Commissioner, I am honored to be 
here before you today to provide the Administration's views on S. 1480, 
legislation concerning law enforcement authority within Bureau of 
Reclamation (Reclamation) projects and Reclamation administered lands. 
Thank you for holding this hearing and I would especially like to 
express my appreciation to the Chairman for introducing S. 1480 at the 
Administration's request.
    Reclamation is the largest water resources management agency in the 
west. The agency operates 348 reservoirs, 58 hydroelectric power 
plants, and more than 300 recreation sites which receive 90 million 
visits a year. Despite Reclamation's obligation to operate, manage, and 
use these facilities on 8 million acres of public land, Reclamation 
still needs express authority to enforce Federal laws or regulations 
within a Reclamation project or on Reclamation administered lands.
    With that being said, I want to be clear that all of our dams and 
other sites are secure and we are operating on a normal schedule. This 
was the case even before the recent tragedies in Washington, D.C., New 
York City, and Pennsylvania. However, in addition to this heightened 
state of alert, there are regular violations of Federal law on 
Reclamation property that could present a threat to public safety or to 
the resources that we manage. Let me give the Committee just a few 
examples. At Lake Berryessa, a popular recreation site in northern 
California, trespass, vandalism, resource damage, unauthorized large-
scale camping and events, and hazardous materials dumping occur on a 
regular basis. In Yuma, Arizona, unauthorized use of Reclamation 
facilities such as trespass are common occurrences. Throughout the 
agency, Reclamation's area offices report recurring problems such as 
unauthorized entry into lands and facilities, vandalism, theft of 
cultural resources, illegal drug-related activities, and illegal 
dumping and burning.
    While Reclamation can contact State or local law enforcement 
agencies to enforce State and local laws, these entities cannot enforce 
Federal laws within a Reclamation project or on Reclamation-
administered lands. In one case, because of our lack of authority, 
Reclamation found it necessary to work with the local county government 
to establish local ordinances, so local law enforcement officers could 
protect the safety of visitors at Reclamation's recreation site.
    Very often the lands adjacent to Reclamation properties are managed 
by other Federal agencies capable of providing law enforcement for the 
protection of visitors and public resources. However, Reclamation is 
limited in its ability to acquire those services.
    Before touching upon the details of this legislation--what the bill 
does--it is important to clarify a few points about what this bill does 
not do. S. 1480 would not create a new police force or law enforcement 
agency within the Bureau of Reclamation.
    Now to what S. 1480 would do.
    S. 1480 would give the Secretary of the Interior (Secretary) the 
discretion to authorize law enforcement personnel from other Department 
of the Interior agencies or other Federal agencies that have law 
enforcement authority (but not the Department of the Defense) to 
enforce Federal laws on Reclamation's behalf at Reclamation projects 
and Reclamation-administered lands. Also, the Secretary will have the 
discretion to enter into agreements with law enforcement personnel of 
any State or local government, including Indian tribes, to enforce 
Federal laws at Reclamation projects and Reclamation-administered 
lands. The bill authorizes the Secretary to reimburse law enforcement 
agencies for their services. S. 1480 specifies that only trained law 
enforcement personnel authorized to carry firearms, make arrests, and 
enforce criminal laws would be eligible to enforce Federal law within 
Reclamation projects or on Reclamation-administered lands.
    Mr. Chairman, the lack of law enforcement authority within a 
Reclamation project or on Reclamation-administered lands impedes the 
Bureau's ability to provide for public safety and the security of its 
facilities. In discussions with the Committee staff, we have learned 
that there are some technical modifications that may be needed to fully 
effect the purposes of the bill. The Administration strongly supports 
S. 1480, and we will work with the Committee to address any potential 
changes.
    That concludes my testimony, I would be pleased to answer any 
questions you may have.

    The Chairman. Thank you very much for your testimony. Why 
don't we go ahead and hear from Ms. Otis, who is General 
Counsel for the Department of Energy.

STATEMENT OF LEE LIBERMAN OTIS, GENERAL COUNSEL, DEPARTMENT OF 
                             ENERGY

    Ms. Otis. Thank you very much, Mr. Chairman. This is my 
first appearance before the committee in my official capacity 
as General Counsel as well, and I very much appreciate the 
opportunity to be here to discuss with you today some steps 
that can be taken to assist in protecting our critical energy 
infrastructure.
    I have been asked to address really two topics. One is what 
the Department is doing now, and the other is to comment on a 
staff draft substitute amendment to S. 1480 which would extend 
the provisions of the bill to include some provisions relating 
to energy infrastructure as well as the Bureau of Reclamation 
subject matter that it covered originally.
    As to what the Department is doing now, the Department of 
Energy is basically playing a coordinating role in attempting 
to coordinate the efforts of elements of the private energy 
sector in making plans to enhance our capacity to protect our 
energy infrastructure.
    We do not currently have any kind of regulatory role. We 
are simply performing a coordination function, and people who 
are participating in that effort with us on the outside are 
doing so voluntarily. And so essentially what we are doing is 
working with industries, States, and localities on a voluntary 
cooperative basis, and sharing information and working with 
industry groups like the North American Electric Reliability 
Council (NERC) and the National Petroleum Council (NPC) to try 
to provide information about potential threats to 
infrastructure, and steps that can be taken to protect it. Our 
Office of Critical Infrastructure is the focal point for this 
activity.
    Turning to S. 1480, the draft substitute contains several 
provisions that we think will enhance our ability to play this 
kind of role more effectively. Let me comment first about the 
ones we view as the most important, and then as time permits I 
will talk about the other ones.
    The ones that we think are the most important are sections 
5 and 6. Let me also add, because of the timing of all of this, 
I am essentially presenting the Department's preliminary 
thoughts.
    We do not have an official administration position yet on 
any of this, but section 5 would essentially create a 
prohibition on disclosure of critical infrastructure 
information relating to the energy sector, and I believe to 
that extent it is closely related to the provision in Senator 
Bennett's and Senator Kyl's bill that will do that more 
broadly. We think this is an important provision, because we 
think that the exchange of information that we are currently 
engaging in would be enhanced by our ability to assure people 
who are providing information to us that it is not going to be 
disclosed absent a solid governmental reason for doing so.
    My staff made some technical suggestions about the language 
in the bill, I think at the end of last week, essentially to 
extend it to make sure that it covers cyber security and to 
make sure that there is an appropriate disclosure mechanism for 
important governmental purposes, because it will not do us a 
lot of good to get this information and not be able to do 
anything with it.
    We also want to modify it so that the prohibition against 
disclosure is not tied to the source of information, but, 
rather, the nature of the information, and to provide 
rulemaking authority to make sure that the concepts in the bill 
can be carried out in a manner that is understood.
    The other provision I would like to spend a few minutes on 
is section 6, which is an antitrust exemption that parallels to 
a significant extent the antitrust exemption for information-
sharing related to critical infrastructure in the Kyl-Bennett 
bill, but again this is related to the energy sector rather 
than to information more broadly.
    The substitute provision is similar to authorities under 
the Defense Production Act (DPA) and Energy Policy and 
Conservation Act (EPCA) to create exemptions from the antitrust 
laws for voluntary agreements to carry out important national 
purposes. In the DPA's case, the exemption is for information-
sharing and for planning related to preparedness and expansion 
of production capacity and supply necessary to the national 
defense, and in EPCA's case it is to carry out international 
emergency response provisions if there is an energy emergency. 
We think this is a reasonable parallel, and therefore we think 
that in making plans to address disruption of our critical 
energy infrastructure it is sensible to analogize that to these 
other two instances.
    We again have made some suggestions for conforming S. 
1480's language to the preexisting exemptions to make sure the 
Federal Advisory Committee Act (FACA) exemption from these 
other pieces of legislation is picked up, and to allow the 
exemption to cover not only agreements to plan but potentially 
also agreements to take actions to implement plans relating to 
these voluntary agreements. We are also interested in exploring 
the idea of allowing the Department to certify a private 
organization to set standards for critical infrastructure 
protection that would then be carried out by the private 
sector.
    The other two provisions that I would just like to say a 
few words about are section 3, which is an effort to confer 
Federal law enforcement on employees of the Bonneville Power 
Administration (BPA), who monitor the BPA infrastructure, in a 
manner similar to what the original bill does with respect to 
the Bureau of Reclamation. We think that BPA employees should 
be able to have that kind of authority, as designated by the 
Secretary, and we would like to work with the committee on the 
language that is being proposed.
    Finally, let me say a few words about section 4, relating 
to background checks for employees of various elements of the 
energy sector. We are less sure about what is sought to be done 
here, and how to go about it. Because those employees are part 
of an industry that currently is not closely regulated by the 
Federal Government, we are not sure that the kind of program 
that the committee is looking at in that regard, the breadth of 
it, is necessarily the way to go.
    We would like to work with the committee and with the 
Department of Justice to see what the issue is that is sought 
to be addressed, and how we could best address it.
    [The prepared statement of Ms. Otis follows:]

       Prepared Statement of Lee Liberman Otis, General Counsel, 
                          Department of Energy

    Mr. Chairman and Members of the Committee, I am Lee Liberman Otis, 
the General Counsel of the Department of Energy (DOE). This is my first 
appearance before this Committee in my official capacity. The topic the 
Committee is meeting to consider this morning, critical infrastructure 
assurance, is a serious one at any time, and all the more so in light 
of this weekend's events. I therefore especially appreciate having the 
privilege of discussing that topic with you today.
    I have been advised that you would like me to address two subjects: 
first, to discuss DOE's current role in critical infrastructure 
assurance; and second, to discuss provisions of S. 1480, a bill that I 
am advised is being expanded to include a number of provisions intended 
to strengthen DOE's and the energy sector's critical infrastructure 
protection capacity. I will take these topics in order.

           I. DOE'S CRITICAL INFRASTRUCTURE ASSURANCE MISSION

    Our energy infrastructure is critical to the nation's economic 
prosperity, national defense, and quality of life. In recent years, 
energy markets, industries, and regulatory regimes have changed, in 
some cases significantly. The energy infrastructure also has changed 
significantly with respect to its ownership, operation, and 
maintenance. Increased use of computer technology and 
telecommunications services has improved the reliability and economic 
efficiency of energy systems, but has also brought accompanying new 
vulnerabilities to disruption. Besides intentional attacks, accidents 
and natural disasters have long presented significant risks to the 
physical and cyber components of the energy infrastructure. The growing 
complexity of the energy system makes these familiar threats 
potentially more disruptive and unpredictable as well.
    DOE's infrastructure mission, as if affects the private sector, 
stems from Presidential assignment rather than specific statutory 
responsibility. Under Presidential Decision Directive 63, issued in 
1998, DOE is the lead Federal agency designated to work with industry 
in improving our capacity to protect our nation's critical energy 
infrastructure, including electric power (with the exception of nuclear 
plants, where the NRC has the leading role), and the oil and gas 
industries. We are also charged with helping to devise ways to mitigate 
any significant vulnerabilities of the energy sector to physical and 
cyber attacks.
    It is important to understand, however, that DOE has no authority 
to require participation in any aspect of this process, let alone 
compliance with any proposals that may result from it. Rather, at 
present we are relying exclusively on voluntary participation and 
cooperation.
    DOE's Office of Critical Infrastructure Protection is the focal 
point of this activity. In cooperation with industry, State, local, and 
tribal governments, and other stakeholders, it carries out the 
following tasks:

  <bullet> Assessing energy sector vulnerabilities to cyber or physical 
        attacks;
  <bullet> Identifying ways to mitigate vulnerabilities;
  <bullet> Developing ways to alert to, contain, and divert attacks;
  <bullet> Planning for a system to respond to energy sector attacks; 
        and
  <bullet> Identifying ways to facilitate rapid reconstruction.

    DOE has been collaborating extensively with industry through 
``sector coordinators''--the North American Electricity Reliability 
Council and the National Petroleum Council--in developing a national 
critical energy infrastructure protection strategy.
    DOE also works closely with utilities, State and local governments, 
and other stakeholders on a regional, State, and local basis. Examples 
include collaboration with the City of Chicago, Commonwealth Edison, 
and 270 municipalities to assist local governments in better 
understanding the threats to, and vulnerabilities of, critical 
infrastructures and facilities in the region; working with the State of 
Utah, utility, local, county, State, and Federal officials on regional 
infrastructure assurance for the Salt Lake City Winter Olympic Games; 
and working with the California Energy Commission, utilities, and 
associations on regional infrastructure assurance needs and activities 
in California and the West. To reiterate, however, participation in all 
of these efforts is entirely voluntary.

                              II. S. 1480

    Let me now turn to S. 1480. At the end of last week, the Committee 
staff kindly shared with us a staff draft of an amendment in the nature 
of a substitute for S.1480. Sections 3 through 6 of the substitute 
relate to aspects of DOE's critical infrastructure program. I hope that 
you will appreciate that the very short time for review of the 
substitute, over a holiday weekend, has not afforded us the opportunity 
to develop a formal Administration position on the bill or on these 
provisions. Nevertheless, given that I understand that the Committee 
plans to mark up S. 1480 tomorrow, I thought it important to provide 
you with the Department's initial reaction to the sections in question.
Section 3
    Section 3 concerns law enforcement authority at DOE's Power 
Administrations (referred to in the bill as ``Power Marketing 
Administrations''). This provision would authorize the Secretary to 
contract with State, local, and tribal law enforcement personnel when 
the Secretary determines assistance is necessary in enforcing Federal 
laws and regulations.
    Regrettably, this section does not at present provide the authority 
we believe would be most helpful. Each of the Power Administrations 
uses GSA guards and relies upon State, local, and tribal law 
enforcement personnel now. All find the current arrangements 
satisfactory, with one exception. Bonneville Power Administration (BPA) 
presents a special case. As you may be aware, BPA owns and operates 
nearly 80% of the high-voltage electric transmission in the Pacific 
Northwest, including the most important interconnections with other 
regions of the Western United States and Canada. The economy of the 
Western United States depends on BPA's reliable operation of its 
electric power system, which includes more than 15,000 circuit miles of 
high-voltage transmission lines in 8 States.
    Given the unique nature of BPA's system, and its dominance in its 
service region (unmatched by other Power Administrations, but similar 
to TVA), BPA currently employs a very small number of security 
specialists who are thoroughly versed in BPA's system and the type of 
crime it attracts. Their principal responsibility is to monitor 
activities directed against BPA's infrastructure.
    DOE believes protection of BPA's system would be materially 
advanced by authorizing the Secretary to give this handful of employees 
the authority to carry firearms and limited Federal law enforcement 
authority. Similar authority already is provided under other statutes 
to DOE guard personnel involved with our nuclear weapons complex and 
defense activities and with our Strategic Petroleum Reserve. DOE has 
prepared a legislative proposal that is in the final stages of the 
interagency clearance process to allow the Secretary to provide the BPA 
security specialists with the required authority. We urge the Committee 
to consider that proposal when it is submitted, instead of section 3.
    In addition, the Committee may wish to consider extending to the 
other Power Administrations authority available to Bonneville to offer 
crime witness rewards as an incentive to gain valuable information 
regarding criminal attacks. Bonneville estimates its witness reward 
program has resulted in savings of almost $4 million over the last 4 
years. The House Resources Committee has ordered reported H.R. 2924, 
which would grant the other Power Administrations this authority.
Section 4
    Section 4 would require the Secretary of Energy, in cooperation 
with the Attorney General, to establish a criminal background check 
system covering energy sector employees occupying ``sensitive'' 
positions at critical energy infrastructure facilities.
    I understand that this section is modeled on section 149 of the 
Atomic Energy Act of 1954, which established such a program for the 
Nuclear Regulatory Commission with respect to civilian nuclear power 
plant personnel. We have not had an opportunity to discuss this section 
yet with the Department of Justice, which would be deeply involved in 
such a program; nor do we know enough about the size of the program 
contemplated or the intended object of the program to take a position 
on it. We would note, however, that civilian nuclear power plants have 
since their inception been closely regulated by the federal government. 
That is not the case with respect to the entities that would be covered 
by this provision. Accordingly, it may be that such a program, to the 
extent it is needed, would be administered more appropriately at the 
State or local level, rather than the Federal level. I would point out 
that even the industry representatives who have called for action on 
this subject specifically note that they do not favor the substantial 
federal government role that this provision may contemplate. To 
reiterate, however, without more information and more input from the 
Department of Justice, we are not able to take a position on this 
provision at this time.
Section 5
    Section 5 would prohibit the disclosure by the Secretary of Energy 
or a Federal agency of information that would reveal a specific, 
identifiable weakness or vulnerability of a critical energy 
infrastructure facility to a physical attack, or that would compromise 
the physical security of a specific, identifiable energy infrastructure 
facility.
    Perhaps the loudest complaint from industry with regard to 
information that industry submits to the government is that government 
lacks the capacity to protect that information. Accordingly, companies 
can be, at best, reluctant to share it.
    The September 11 attacks have made our nation more acutely aware 
that there is a delicate balance that must be maintained between the 
protection and the release of information, particularly when it 
involves the nation's critical energy infrastructure. DOE believes that 
in order to facilitate the exchange of information that is the 
foundation of cooperation between the private sector and the federal 
government in protecting critical energy infrastructure, the government 
needs more ability than it has currently to protect the information we 
are given. We support legislation affording that protection.
    My staff has discussed informally with Committee staff relatively 
minor changes to section 5 that would extend its reach to cyber, as 
well as physical security. We have also noted that to accomplish its 
purpose, this section must contain a mechanism that would allow the 
government to disclose that information where disclosure is warranted, 
for instance for intelligence and law enforcement purposes, to enable 
the taking of corrective measures, and the like.
    I note that Senators Bennett and Kyl have introduced S. 1456, which 
addresses this information protection problem from a government-wide 
perspective. Without commenting on the particular provisions of that 
legislation, I would note that we believe there is government-wide 
concern about this subject that extends beyond energy-sector 
information, but that addressing energy-sector information would be an 
extremely useful step.
Section 6
    Section 6 would authorize the formation among companies in the 
energy sector of voluntary agreements to gather and analyze information 
to better understand security problems and to communicate or disclose 
information to avoid or correct security problems. The section would 
afford a limited anti-trust defense to the participating entities. This 
section is modeled on existing authority available to oil companies 
participating in International Energy Agency activities.
    DOE supports this section, and my staff has informally suggested 
some minor technical changes to bring the section more in line with 
similar authority available under the Defense Production Act, recently 
extended by Congress for two years. Section 6 would go a long way 
toward calming another of industry's oft-expressed fears--that the 
sharing of information among companies, which is essential to 
addressing and correcting critical infrastructure vulnerabilities, 
might subject them to anti-trust liability.
    In addition, DOE is interested in exploring whether it should be 
granted limited authority to certify private sector organizations that 
would have some authority to set critical infrastructure security 
standards for different portions of the energy sector. As we envision 
it, different organizations would be established for each sector of the 
energy industry--electric power, oil, and natural gas--although more 
than one organization might be appropriate for a given sector.
    In conclusion, I deeply appreciate having the opportunity to 
testify this morning on this important legislation, and I'd be pleased 
to respond to any questions you or other members of the Committee may 
have.

    The Chairman. Thank you very much. We are about half-way 
through this vote. I think what we will do at this point is to 
recess and come back and ask some questions at that point, so 
it will be about a 10-15 minute recess.
    [Recess.]
    The Chairman. Why don't we start again here. I have a few 
questions. I am sure Senator Carper will have some questions as 
well, and we start with you, Mr. Keys. I will just ask a couple 
of things that occurred to me. One relates to a concern I think 
that you expressed that you do not want to be setting up a new 
police force, you do not want to have authority to enforce 
criminal laws within the Bureau of Reclamation, is that 
correct?
    Mr. Keys. Yes, sir. That is a tough call, and in working 
with my Secretary and within the administration it appears that 
we can provide adequate protection with contract authority to 
get that done.
    The Chairman. We have in the Department of Energy parts of 
this bill, proposals that we give Bonneville Power 
Administration authority to do just what you are saying you do 
not want the authority to do, and that is to actually enforce 
criminal law, as I understand it.
    Mr. Keys. That is correct. I have corresponded and talked 
with the Bonneville Power folks, and with Western Area Power 
Administration. There is a difference of opinion there on how 
they would like to approach it. Our Secretary and our 
administration felt that we could do it better with what we 
have.
    The Chairman. Do you have the resources you need? Do you 
have a cost estimate for what you would like to see done, 
assuming this bill passes, and, if so, do you need more 
resources to do it?
    Mr. Keys. Senator Bingaman, this thing has come upon us 
very quickly, where we would provide that level of security at 
all of our facilities. As I said earlier, we have in excess of 
400 sites that need some sort of protection at one level or the 
other.
    In providing that, what we would do is work with the other 
agencies of Interior that have law enforcement authority, and 
would enter into agreement with them to bring their folks into 
our facilities. We would teach them about our facilities, and 
then they would operate under our direction.
    It appears to us that it would take in excess of 200 people 
to do that, and the cost could exceed $25 million a year. Those 
are just rough estimates, certainly ones that we would be 
working to hone and then to come to the appropriations people 
to see how we could cover them.
    The Chairman. I know Sandia Labs did a report for you folks 
on cyber security.
    Mr. Keys. That is correct.
    The Chairman. Is there more work needed in that area, or do 
you think that was adequate to the purpose?
    Mr. Keys. The report we got from Sandia laid out a number 
of things for Reclamation to do, and we do have a cost estimate 
for accomplishing the levels of security that they recommended 
for our information technology. The estimate for that that is 
in our budget, about $17 million. I think for the current time 
that review is adequate.
    In the next level of security review that we will do in all 
of Interior, and especially in Reclamation, we will take 
another look at it, but we think what we got from Sandia right 
now is a good report.
    The Chairman. Ms. Otis, let me ask you a few questions 
about the Department of Energy position. As I understand it, 
the administration is preparing a proposal on this Bonneville 
Power Administration law enforcement authority, is that 
correct?
    Ms. Otis. That is correct.
    The Chairman. When can we expect to see that?
    Ms. Otis. Mr. Chairman, it is in the process of agency 
review, and so we will get back to you as soon as the hearing 
is over with more information about that. We did not have the 
opportunity to talk to anyone this morning about how that is 
coming along.
    [The following information was received for the record:]

                  BONNEVILLE LAW ENFORCEMENT AUTHORITY

    The Administration conducted an interagency review of the 
Department of Energy proposed draft legislation for Bonneville armed 
security authority and determined that the proposed legislation should 
not be transmitted to the Congress. The Department of Justice (1) 
indicated that it is the Department of Justice policy to limit the 
number of statutorily authorized federal police forces and (2) 
determined that an administrative process would be available to 
Bonneville to arm its federal security specialists under the special 
deputations program of the U.S. Marshals Service. Bonneville is 
proceeding with this administrative approach for arming its federal 
security specialists. Bonneville's non-federal contract guards will 
continue to be armed under appropriate state law and regulations.

    The Chairman. Okay. Let me ask about the Strategic 
Petroleum Reserve. I know the Secretary of Energy has indicated 
that is a subject that is under very serious consideration at 
the Department of Energy. I guess there is some question about 
our ability to access the crude oil that is in there in order 
to turn it into refined product. What is DOE's position as to 
whether they have the authority they need to adequately fill 
the SPRO and make preparations for accessing the oil that is in 
the SPRO, and all those issues?
    Ms. Otis. I think that we do feel we have the authority 
that we need to fill it, and to access what is in it. I think 
the administration is looking right now at exactly how it would 
like to proceed, and it is giving very serious consideration to 
what it wants to do next on that score.
    The Chairman. I gather the House committee has moved ahead 
to propose, or to--I do not know if they have enacted or passed 
legislation on SPRO, calling for additional filling of SPRO and 
some things--you have no position on those provisions in the 
House bill?
    Ms. Otis. My understanding is it was a Sense of the 
Congress kind of resolution calling for filling SPRO, if we are 
talking about the same provision. We are currently reviewing 
exactly how we would like to proceed ourselves, and therefore a 
Sense of Congress provision is not something on which we would 
take a position at this time.
    The Chairman. Do you have any view, or does the 
administration have any view on the provisions in Senator 
Bennett's bill, the one he described to us here a few minutes 
ago?
    Ms. Otis. There is no official administration position on 
Senator Bennett's bill. But speaking for the Department of 
Energy, there are two questions about the bill's antitrust 
exemption.
    First, there is the scope of it--and it would cover more 
information than just the energy sector, and we do agree that 
there is concern about information beyond the information 
directly involving the energy sector.
    We also think, however, that doing something about the 
energy sector information is a very important step, and if that 
is the most that can be done right now, we would support doing 
that.
    The other issue about the antitrust exemption in the 
Bennett bill is that it does not use the model of the DPA, or 
of EPCA in terms of involving the Attorney General and the 
Federal Trade Commission (FTC) in the devising of the voluntary 
agreements at issue. I think it also contains exceptions saying 
if there is price-fixing going on, then the information-sharing 
would not be protected, and if there is market dividing going 
on, then the information-sharing would not be protected.
    The effect of that may be to lead to less certainty than is 
desirable, because you would not have the sign-off from the 
people who would be enforcing the antitrust laws on the 
proposed information-sharing activity, and there would be an 
exemption, with exceptions to the exemption. I am not sure that 
that would provide the certainty that you would need for 
industry to feel confident about sharing its information 
through the mechanism at issue.
    The Chairman. My time is up.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman, and to our 
witnesses, thank you for joining us today, and I have a couple 
of questions. Let me just start--I missed your testimony, most 
all of your testimony, and I apologize for being late, but I 
would ask each of you to take just a minute or two just to 
crystallize for me what we ought to be doing with respect to 
marking up legislation this week on protecting our energy 
infrastructure, just crystallize it for me.
    Mr. Keys. Mr. Chairman, Senator Carper, we need law 
enforcement authority in Reclamation to be able to provide the 
necessary levels of security around our facilities, which are 
about 340-some-odd dams, in excess of 8 million acres that we 
administer.
    The administration would like to see you pass a bill that 
gives us the authority to contract for that. What we are 
looking to do is have Reclamation contract with other agencies 
within Interior to provide that service. It will take extra 
people, it will take more money to do that, but we think that 
is the best way to go. It does not create another police force. 
It does not give us the authority to carry guns and that sort 
of thing, but it gives us the ability to contract out that 
service.
    I would say that it gives us the ability to contract at 
several different levels. I think if you look at it, first we 
could contract with our sister agencies that already have that 
authority. If in a local situation we could go to a local 
government agency, the sheriff or the local police, or the 
State, and contract with them, this bill gives us the authority 
to pay them.That is what we do not have right now, is the 
ability to have one of those come in and do that for us. That 
is what this bill would do for us.
    Senator Carper. Is that Senator Bennett's bill?
    The Chairman. That is a bill the administration sent us 
which does incorporate the new authority the Bureau of 
Reclamation would like to have, and then we are considering 
whether to add Senator Bennett's bill to that, or other 
provisions that the Department of Energy has come up with to 
that.
    Senator Carper. Thank you.
    Mr. Keys. Senator Carper, I would add to what Senator 
Bingaman said, whether you all add those bills together or not 
does not matter, except that we need some quick action, because 
the people that are helping us from the Park Service, from the 
BLM, from the Bureau of Indian Affairs, from the Fish & 
Wildlife Service are stretched much too thin right now. Maybe 
bureaucrats looking for security is the same thing as visitors 
to your house, after 3 days they start to smell, and we are 
stretching our goodwill among agencies awfully thin right now, 
with them having to provide us with that service.
    Senator Carper. Three days?
    Mr. Keys. It is in excess of that now, so we are pretty 
ripe about now.
    [Laughter.]
    Senator Carper. And if I could, I would like to ask Ms. 
Otis, could I ask you just to respond to a similar question, 
just crystallize for me succinctly where you think we are?
    Ms. Otis. As I told the committee at the beginning of my 
testimony, because of the haste with which we are all trying to 
proceed here, I do not actually have an official administration 
position to offer on any of this at this time, but speaking for 
the Department of Energy, we reviewed a draft substitute that 
the committee staff shared with us to S. 1480 on Friday, and 
two of its provisions we think would address the most important 
areas where we would like to see action taken, and those relate 
to information-sharing regarding critical energy infrastructure 
between the private sector and the Government.
    Basically, the substitute would create a prohibition on 
disclosing that kind of information, and it would also exempt 
from the antitrust laws the sharing of that kind of 
information, and we think that kind of legislation along those 
lines would help us in our most important next steps in terms 
of trying to find out what needs to be done to help protect our 
energy infrastructure.
    Senator Carper. Where is that legislation? What is the 
status of that legislation?
    Ms. Otis. My understanding is, and the chairman can correct 
me, that there is a substitute which has been circulated among 
the committee members, or perhaps among the staff of the 
committee, I am not sure, that is being looked at.
    The coverage is similar to the coverage of the Bennett-Kyl 
bill, except that it is limited to energy infrastructure, as 
opposed to sweeping more broadly. We do think there is a 
Government-wide issue about protecting this kind of 
information, and we would like to see it addressed Government-
wide, but we would not like to see the effort to address it 
Government-wide interfere with the effort to address it in the 
energy sector.
    As I was telling the chairman, I think that the model the 
committee is using for the antitrust exemption is one that has 
been tried in other contexts, and therefore one that it is 
likely that everyone has more experience with, and therefore 
may be more comfortable with.
    Senator Carper. Do either of you have a feel for how our 
security of our energy infrastructure in America compares with 
that of some other nations, particularly to our north or to our 
south?
    Ms. Otis. I do not really have a good feel for that. I 
would be happy to get back to you about that. This is obviously 
something everyone is looking at very intensely right now. It 
is not actually a subject matter over which the Energy 
Department has regulatory authority or responsibility at all 
right now. We are just basically trying to talk to people on a 
voluntary and cooperative basis.
    Mr. Keys. Senator Carper, we have not lately talked to our 
Canadian counterparts who we work with closely at times on our 
generation facilities, but about 3 years ago we did a review of 
our facilities and actually incorporated a lot of their ideas 
on security into the review of our facilities in the Northwest.
    We have not gone back and looked at that this time. We do 
have scheduled a more thorough security review of all of our 
facilities in the near future, and certainly that contact would 
be made again, especially BC Hydro. They are the ones that we 
have had very close ties with in the past.
    Senator Carper. Given the fact that we import a fair amount 
of energy, including some from the north in Canada and from the 
south in Mexico, should we be concerned at all about the 
protection of their energy infrastructure, or do we have 
enough--or are we just here in our own States?
    Mr. Keys. Senator Carper, that is a good question. I do not 
have a good answer for you. We do depend upon the exchanges of 
power across the border in meeting the Federal Columbia Power 
System obligations. To be very candid with you, our plate is 
full right now providing security for our own facilities. I 
would say that when we make contact with BC Hydro, we would 
inquire what further measures they are taking to see that they 
are comfortable with what they have. We just have not gotten 
that far yet.
    Senator Carper. I understand.
    The Chairman. Thanks very much. Let me just ask Ms. Otis 
one other question here. Both the Corps of Engineers and the 
Bureau of Reclamation, which operate the dams for the power 
marketing administrations, believe that they can rely upon 
State and local law enforcement officials to protect those 
dams. Why does Bonneville believe it needs new Federal police 
force authority to act as a Federal police force to protect 
transmission wires?
    Ms. Otis. My understanding is that--and I may not have this 
right, but my understanding is that the Corps actually does 
have some authority to protect its own structures, and I think 
that what my colleague is saying is that the Interior 
Department has other Federal officials who have these kinds of 
authorities whom it could cross-designate to exercise the law 
enforcement authorities that would be needed to allow it to 
protect its own structures.
    At Energy, we do not have anybody who we could cross-
designate in that fashion, and we are basically not asking for 
broad authority at all, but there is a handful of security 
specialists that Bonneville hires to look out for its 
infrastructure, and we do think their ability to protect that 
infrastructure would be materially enhanced by giving just that 
handful of employees this kind of authority.
    The Chairman. All right. Well, I think that is useful 
testimony, and we appreciate both of you being here, and we 
will take that to heart and try to move forward if we are able 
to do that.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]


</pre></body></html>
